Appendix
Table of Contents of Appendix
Appendix A: Denial of Review by First Circuit 53
Appendix B: Dismissal Order of District Court ....55
Appendix C: Proposed Rebuilding of the Home ....63

Appendix A: Denial of Review by First Circuit
United States Court of Appeals
For the First Circuit
No. 20-1242
JOHN S. BARTH, Plaintiff - Appellant, v.
ADAM BUCKLEY; JASON PANOS; CITY OF PEABODY; MARIANNE BOWLER,
Defendants - Appellees.

Before
Thompson and Selya,
Circuit Judges.
JUDGMENT
Entered: February 22, 2021
Plaintiff-Appellant John S. Barth appeals the district court's order dismissing
his complaint based on the doctrines of res judicata and judicial immunity and
based on his failure to state a claim for which relief could be granted. Our review is
de novo. See, e.g., Gagliardi v. Sullivan, 513 F.3d 155, 162 (1st Cir 2008). Review of
the parties' submissions and of relevant portions of the record confirms that the
action was subject to dismissal, for substantially the reasons indicated by the
district court. See Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007) ("Factual
allegations must be enough to raise a right to relief above the speculative level....");
Hatch v. Trail King Ind., Inc., 699 F.3d 38, 45 (1st Cir. 2012) (describing federal res
judicata principles); Cok v. Cosentino, 876 F.2d 1, 2 (1st Cir. 1989) ("Only judicial
actions taken in the clear absence of all jurisdiction will deprive a judge of absolute
immunity.").
We AFFIRM the district court's entry of judgment in favor of the appellees.*

38

By the Court:
Maria R. Hamilton, Clerk
cc:
Annapurna Balakrishna
Donald Campbell Lockhart
Douglas I. Louison
John S. Barth
* While this case was submitted to a panel that included Judge Torruella, he did
not participate in the issuance of the panel's judgment. The remaining two panelists
therefore issued the judgment pursuant to 28 U.S.C. § 46(d).

39

Appendix B: Dismissal Order of District Court
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
JOHN BARTH, Plaintiff, v.
ADAM BUCKLEY, JASON PANOS, CITY OF PEABODY, and MARIANNE BOWLER,
Defendants.
Case No. l:19-cv-12152
ORDER GRANTING MOTIONS TO DISMISS
Plaintiff, John Barth, filed a complaint pro se in the United States District
Court for the District of Massachusetts on October 17, 2019 alleging that
Defendants Adam Buckley, Jason Panos, the City of Peabody, and Marianne Bowler
violated his civil rights. Now before me are Defendants Adam Buckley, City of
Peabody, and Jason Panos’s Motion to Dismiss, Defendant Marianne Bowler’s
Motion to Dismiss, and Plaintiffs Motion for Summary Judgment. ECF Nos. 21, 23,
28. For the reasons that follow, Defendants’ Motions to Dismiss are GRANTED,
Plaintiff s Motion for Summary Judgment is DENIED AS MOOT, and this case is
DISMISSED WITH PREJUDICE.

BACKGROUND
Plaintiff comes to this court a second time to re-litigate claims from a prior
proceeding, Barth v. City of Peabody et al., No. 15-13794 (D. Mass.) (“Barth F), and
to allege separate civil rights violations based upon what happened at trial. Mr.
Barth filed the original lawsuit on November 9, 2015 against the City of Peabody, 1
alleging the City had unconstitutionally taken his property without just
compensation. Mr. Barth sought a declaratory judgment that the City’s taking was
unconstitutional, just compensation for the taking, and damages for loss of
employment and future income under 42 U.S.C. § 1983. The case proceeded to a
jury trial, and the jury found in favor of the City on all counts. On August 9, 2019
the Court entered final judgment and dismissed the action with prejudice.
Mr. Barth filed a timely appeal to the First Circuit, which is currently pending.
Barth v. City of Peabody et al., No. 15-13794 (D. Mass.), appeal docketed, No. 191643 (1st Cir. Jun. 26, 2019).
Despite the pending appeal, Mr. Barth filed this lawsuit seeking the same
relief he pursued in Barth I. His new complaint contains two “Counts,” each of
which contains several claims against the four named Defendants. Count One
copies the unconstitutional takings claim against the City of Peabody almost
verbatim from its predecessor. It also alleges that new Defendants Adam Buckley
and Jason Panos’s “perjuries and misconducts” during the earlier litigation caused
the Takings Clause violation to be “ongoing,” and constitute new, independent
constitutional violations justifying relief under § 1983. Count Two alleges that the
presiding judge from Barth I, the Honorable Marianne Bowler, committed her own
set of constitutional violations while performing her judicial role. For the reasons

40

follow, this case will be dismissed with prejudice: Mr. Barth is barred from re­
litigating claims from his previous lawsuit, and his new civil rights claims in
Counts One and Two have no merit.
1 Mr. Barth voluntarily dismissed claims against all other defendants in Barth I. Order Granting
Pi’s. Mot. for Leave to Dismiss Richard DiPietro and RK Realty Trust without prejudice, Barth v.
City of Peabody et al., No. 15-13794 (D. Mass.), ECF. 114.

DISCUSSION
Two motions to dismiss are before me. Defendants Adam Buckley, the City of
Peabody, and Jason Panos move to dismiss Count One because Mr. Barth’s claims
are barred by the doctrine of res judicata, and any new legal theories fail to state a
claim for which relief can be granted. Defendant Bowler moves to dismiss the
remaining claims in Count Two on the grounds that she enjoys judicial immunity
for her actions while presiding over the trial in Barth 1.1 consider their arguments
in turn.
A. COUNT ONE - CLAIMS BARRED BY RES JUDICATA
“Federal law governs the res judicata effects of a federal court judgment in a
federal question case as applied to a later case that again presents a federal
question to a federal court.” Gonzalez v. Banco Cent. Corp., 27 F.3d 751, 755 (1st
Cir. 1994). Because both this case and Barth I invoked federal question jurisdiction
under 28 U.S.C. § 1331, the rule of decision here is supplied by federal law. Id. And
under federal law the doctrine of claim preclusion, or res judicata, provides that “a
final judgment on the merits precludes parties from relitigating claims that were or
could have been brought in a prior action.” Universal Ins. Co. v. Office of Ins.
Comm’r, 755 F.3d 34, 37 (1st Cir. 2014). Claim preclusion has three elements: “(1) a
final judgment on the merits in an earlier suit, (2) sufficient identicality between
the causes of action asserted in the earlier and later suits, and (3) sufficient
identicality between the parties in the two suits.” Haag v. United States, 589 F.3d
43, 45 (1st Cir. 2009) (internal quotations omitted). For “sufficient identicality
between the causes of action,” a Court must find the two claims “derive from a
common nucleus of operative facts. Id. 46.
The claims in Count One that Mr. Barth previously litigated to verdict in
Barth I meet these three elements. First, there was a final judgment in Barth I,
where a jury rendered a verdict for the Defendant City of Peabody, and the Court
entered judgment on August 9, 2019. See Haag, 589 F.3d at 46 (entry of final
judgment by a district court counts as “final judgment on the merits” for purposes of
claim preclusion). Second, Mr. Barth’s claims that Defendants Buckley, the City,
and Panos violated his civil rights by unconstitutionally taking his property without
just compensation are “sufficiently identical[]” to meet the second element; the
newly-filed complaint copies these claims almost verbatim from the previouslylitigated case, easily clearing the First Circuit’s bar for whether the causes of action
“derive from a common nucleus of operative facts.” Id. And third, parties are
sufficiently identical with respect to the copied-over claims.
Claim preclusion applies to Defendants who are identical or “closely related
to a defendant from the original action.” Airfame Sys. V. Raytheon Co., 601 F.3d 9,

41

17-18 (1st Cir. 2010). Here, the City of Peabody is a defendant in both cases.
Defendant Panos was the chairman of the City’s Zoning Board of Appeals when Mr.
Barth’s property was taken, and Defendant Buckley was the City’s lawyer in Barth
I; both are sued in their official capacities only, which amounts to suing the City
itself. Will v. Michigan Dep’t of State Police, 491 U.S. 58, 71 (1989) (holding that a
suit brought under § 1983 against “a state official in his or her official capacity is
not a suit against the official but rather is a suit against the official’s office.”).
Therefore, Mr. Barth’s renewed civil rights claims in Count One arising from the
City’s unconstitutional taking are barred by res judicata.
B. COUNT ONE - PERJURY CLAIMS
Mr. Barth’s complaint is not a model of clarity, but as this Circuit has noted
in the past, “the fact that the plaintiff filed the complaint pro se militates in favor of
a liberal reading.” Rodi v. S. New England Sch. Of Law, 389 F.3d 5, 13 (1st Cir.
2004); see also Boivin u. Black, 225 F.3d 36, 43 (1st Cir.2000) (explaining that
“courts hold pro se pleadings to less demanding standards than those drafted by
lawyers”). Reading Mr. Barth’s complaint in such a favorable light, Count One could
also be construed to allege a Section 1983 claim against Defendants Buckley and
Panos for their alleged penury during the Barth I litigation.
To the extent the complaint makes these claims, however, none is actionable
under federal civil rights law. Count One alleges that Defendants Buckley and
Panos each made false statements at various points during Barth I, either on the
witness stand or in court filings. Compl. at
41-64. Both the Supreme Court and
the First Circuit have addressed the issue of whether individuals are subject to
Section 1983 liability for allegedly committing perjury, either during trial or in
motion practice. See, e.g., Briscoe v. LaHue, 460 U.S. 325, 329 (1983) (holding that §
1983 does not allow recovery of damages against a private party or government
actor for testimony in a judicial proceeding); Scarpa v. Desmond, 2 F.3d 1148 (1st
Cir. 1993) (same). Because the new allegations against Defendants Buckley and
Panos are limited to their contributions to the Barth I litigation, and since those are
not constitutional violations actionable under § 1983, Mr. Barth has failed to state a
claim against either Defendant. I will, therefore, grant Buckley and Panos’s motion
to dismiss the perjury claims in Count One.
C. COUNT TWO - JUDICIAL IMMUNITY
Mr. Barth also brings a scattershot of allegations against the presiding judge
in Barth I, the Honorable Marianne Bowler. He alleges Judge Bowler violated his
rights under the Due Process and Equal Protection Clauses of the Fourteenth
Amendment by abusing her public office for private gain, committing “perjury in
jury instructions,” and engaging in “ex parte communication with the defendants.”
Compl., f1f 34-38, 65-90. He further contends that Judge Bowler took his property
without just compensation and conspired to violate federal civil rights laws. Id.
Reaching further, Mr. Barth also asks the Court to remove Judge Bowler “for
disability or corruption” and to initiate disbarment proceedings against her. Id.
Defendant Bowler moves to dismiss these claims under the doctrine of judicial
immunity. For the reasons that follow, I will dismiss the claims against Defendant

42

Bowler in Count Two, as she is immune for those acts performed in her judicial role
during Barth I.
As the First Circuit has repeatedly held, “it is an axiom of black letter law
that when a judge carries out traditional adjudicatory functions, he or she has
absolute immunity for those actions.” Zenon v. Guzman, 924 F.3d 611, 616 (1st Cir.
2019). Those “traditional adjudicatory functions” are defined by “the nature of the
act itself, i.e., whether it is a function normally performed by a judge, and to the
expectations of the parties, i.e., whether they dealt with the judge in his judicial
capacity.” Mireles v. Waco, 502 U.S. 9, 12 (1991). Inversely, a judge is not immune
when “carrying out a nonjudicial action, or in instances where a judge takes an
action, though seemingly ‘judicial in nature,’ that is ‘in the complete absence of all
jurisdiction.’” Guzman, 924 F.3d at 616, quoting Stump v. Sparkman, 435 U.S. 349,
362 (1978). Under the well-established doctrine of judicial immunity, therefore,
Defendant Bowler is immune from § 1983 liability for carrying out duties “normally
performed by a judge” in with Barth I.
All of Mr. Barth’s allegations against Defendant Bowler stem from her
performing her judicial functions, and are thus barred. He alleges that Judge
Bowler caused a verdict to be entered against him by “ignoring] definitive
memoranda of law, obstructing] process, communicat[ing] privately with defendant
Buckley before and during the trial, and commit[ing] abuse of office and perjury on
all issues of federal law in ordering the jury... to make a plainly and extremely
unconstitutional decision.” Compl., at 5. Consideration of legal memoranda,
communication with counsel, and the issuance of jury instructions are all squarely
within the definition of duties “normally performed by a judge,” and do not open
Defendant Bowler up to potential liability under § 1983. Nowhere does Mr. Barth
allege that Defendant Bowler lacked jurisdiction for her actions. The First Circuit
and other courts in this District have routinely dismissed cases alleging similar civil
rights violations. See, e.g. Guzman, 924 F.3d 616; Bauersachs v. Massing, Civil
Action No. 19-10295-ADB, 2019 WL 4918271, at * 3 (D. Mass. Oct. 4, 2019). I
likewise find that Mr. Barth’s § 1983 claims based on Defendant Bowler’s handling
of Barth I are barred by the doctrine of judicial immunity, and I will grant the
motion dismiss the claims in Count Two.
CONCLUSION
Because I find Mr. Barth’s claims in Counts One and Two of his Complaint
are without merit or are barred by the doctrines of res judicata or judicial
immunity, I will GRANT Defendants’ Motions to Dismiss (ECF Nos. 21, 28), will
DENY AS MOOT Plaintiff s Motion for Summary Judgment (ECF No. 23), and will
dismiss this case with prejudice.
SO ORDERED.
Dated this 12th day of February, 2020.
IS/ Lance E. Walker
LANCE E.WALKER, U. S. DISTRICT JUDGE

43

Appendix C: Proposed Rebuilding of the Home

S'?

#2 LYNX
STREET

I

T
*

#6LYN>‘
STREET

we

PROPOSED DWELLING
#4 LYNN STREET ,
(half of the footprint
of the former home)

&

1
j
j
1

m£ ^

LOG

!

til

f

Ot'ILINE "FOOTPRINT"
OF THE FORMER HOME

r

*
SIGNAL .

imLe

*

,43.60

*BF'

Vsr'**

SIDEWALK

-

------ 14 3
---, Bust INC ,
CUBS OWNING

ptfat-osEo
cuna wiui.'wnc

LYNN STREET
OUTLINE PLAN of Subject Property at.4 Luhn St,, Peabody, MA
Shewing ondinesof formerandproposed homes.

44

M1

SIII

w
p

*

I
“

■ .-i—r-7|

View Of The fiooit Rd*5 As Proposed

111---------1|-------- 1|--------1|-------- II-------- ll.

II-

II--H

IN
IN..

It : :
it==

.11------ 1|--------h------- ||IUJI-------41

ii-------- ii-------- ii-------- nr------------ *: =•—it

II

||

II

41

II

||

||

||

||

II

ii

:

ii
M

n

ii
ii
ii

i

ii

ii

ii nr

ii
ii

ii
i

II

ii

n

n
n

llh°-»-‘!

111- —
111

HI

'

n

it
n
n

n

I

||

II
II

---41
ii

||

n .
n
it

_□:!!

I!

ii

ii
ti
ii

n

n

ii

ii

tl . J1

ii

II IHI I

H

E

L

II
II
ll
M
ll
ll
II

II
ll
ll
ll
II
ll
II

' n

lie

II

ii
{!

ll
ll •
tl
ll
II
ll
II
ii

n
ll
ll
l

-TI — Tl —IT

ll
II
ii
ll
ll
II

n
it

I!

n

framing of far wall
shown in dashed lines
ii
ii
ii
ii

JU

■ii.

■11

-IL

45

11

■■4

4
=4 —
= = =u

